BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that the original
and 2 copies of the foregoing Application for an
Extension of Time Within Which to File a Petition for
a Writ of Certiorari to the Supreme Court in Native
Wholesale Supply Company v. The People ex rel. Xavier
Becerra, as Attorney General, etc., were sent via Next
Day Service to the U.S. Supreme Court, and 1 copy
was sent via Next Day Service and e-mail to the
following parties listed below, this 3rd day of
December, 2019:
Nora Karleen Flum
Office of the Attorney General
1515 Clay Street, 20th Floor
Oakland, CA 94612-0550
Michael Michel Edson
California Dept of Justice
455 Golden Gate Avenue, Suite 11000
San Francisco, CA 94102
Counsel for Respondents
Randolph H. Barnhouse
BARNHOUSE KEEGAN SOLIMON & WEST LLP
7 424 4 TH Street NW
Los Ranchos de Albuquerque, NM 87107
Phone: (505) 842-6123
Fax:
(505) 842-6124
E-mail: dbarnhouse@indiancountrylaw.com
Counsel for Petitioner I Applicant

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 3, 2019.

Julie . Kers er
Becker
gher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

dlv t:J

Notary Public
[seal]

k- 3, ;)ejf

~
4

ktrU~

